                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Cloud Oversight Resulted in
                     Unsubstantiated and
                     Missed Opportunities for
                     Savings, Unused and
                     Undelivered Services, and
                     Incomplete Policies
                     Report No. 14-P-0332                   August 15, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Rudolph M. Brevard
                                                    Charles M. Dade
                                                    Albert E. Schmidt




Abbreviations

CFR           Code of Federal Regulations
CIO           Chief Information Officer
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
FY            Fiscal Year
GSA           General Services Administration
IaaS          Infrastructure-as-a-Service
IPv6          Internet Protocol version 6
IT            Information Technology
NCC           National Computer Center
NIST          National Institute of Standards and Technology
OARM          Office of Administration and Resources Management
OEI           Office of Environmental Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
TIC           Trusted Internet Connection



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                                                                                                               14-P-0332
                         U.S. Environmental Protection Agency                                             August 15, 2014
                         Office of Inspector General


                         At a Glance

Why We Did This Review              Cloud Oversight Resulted in Unsubstantiated and
We sought to determine
                                    Missed Opportunities for Savings, Unused and
whether the U.S.                    Undelivered Services, and Incomplete Policies
Environmental Protection
Agency (EPA) had:                    What We Found
(1) implemented its cloud
                                    The EPA developed processes to monitor              Improved oversight could help
initiatives in accordance with                                                          the EPA achieve objectives for
the Federal Cloud Computing         cloud vendors. However, controls for the
                                    EPA’s cloud computing initiatives are               the million’s spent for cloud
Strategy and associated                                                                 services and identify potential
requirements, and                   incomplete and need improvement.
                                                                                        cost savings.
(2) developed formal processes      Specifically:
to monitor cloud vendors.
                                        The EPA's policies and procedures for moving to the cloud are incomplete
Cloud computing describes a              and need improvement.
broad movement to treat                 The EPA’s cost-benefit analysis did not adhere with guidance.
information technology (IT)             The EPA paid full price for services not performed.
services as a commodity with            The EPA entered into a cloud infrastructure contract that could not be used
the ability to dynamically               to host applications because it did not meet federal requirements. Further,
increase or decrease capacity            there was no documented analysis to determine whether the EPA should
to match usage needs. In                 continue with the contract.
December 2010, the U.S. Chief           The EPA had not performed an analysis to determine whether it would be in
Information Officer issued a             the EPA’s best interest to convert its internal infrastructure to meet all of the
“Cloud First” policy requiring           National Institute of Standards and Technology essential characteristics of
that agencies default to cloud-          a cloud.
based solutions for new IT              The EPA’s Office of Environmental Information did not implement a strategy
deployments whenever a                   to evaluate the EPA’s entire portfolio of IT applications to determine which
secure, reliable and cost-               applications can be consolidated, retired or moved to the cloud.
effective cloud option exists.
                                    As a result, the EPA paid $2.3 million for services that were not fully rendered or
This report addresses the           did not comply with federal requirements. Also, EPA management does not have
following EPA goal or               reasonable assurance that the agency’s cloud initiatives will be effective,
cross-agency strategy:              efficient, and in compliance with applicable laws and regulations.

  Embracing EPA as a high-          Recommendations and Planned Corrective Actions
   performing organization.
                                    We recommend that the Assistant Administrator for Environmental Information
                                    and Assistant Administrator for Administration and Resources Management
                                    undertake a number of corrective actions to address deficiencies in the EPA’s
For further information,            cloud computing initiatives, including: improving related policies and procedures;
contact our public affairs office   providing additional training and oversight to contracting officers; performing
at (202) 566-2391.
                                    documented cost-benefit analyses that are in compliance with federal
The full report is at:
                                    requirements; and implementing a strategy to perform a documented analysis of
www.epa.gov/oig/reports/2014/       all the assets in the EPA’s IT portfolio to determine which assets should be
20140815-14-P-0332.pdf              consolidated, retired or moved to the cloud. The agency concurred with two of
                                    the 11 recommendations. The remaining recommendations are considered
                                    unresolved pending the agency’s response to the final report.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460

                                                                                      THE INSPECTOR GENERAL



                                             August 15, 2014

MEMORANDUM

SUBJECT:       Cloud Oversight Resulted in Unsubstantiated and Missed Opportunities for Savings,
               Unused and Undelivered Services, and Incomplete Policies
               Report No. 14-P-0332

FROM:          Arthur A. Elkins Jr.

TO:            Renee Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

               Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The offices responsible for areas covered in this report include the Office of Administration and
Resources Management’s (OARM’s) Office of Acquisition Management and the Office of
Environmental Information’s (OEI’s) Office of Technology Operations and Planning.

Action Required

OARM indicated that it completed agreed-upon corrective actions associated with recommendations 2
and 7 and we are closing those recommendations in our audit tracking system upon issuance of this
report.

OEI’s responses for recommendations 1, 3, 4, 5, 6, 8, 9, 10 and 11 did not provide sufficient information
on intended corrective actions to allow us to properly determine whether the intent of these
recommendations are satisfied. These recommendations will remain unresolved until OEI provides
planned corrective actions in response to the final report.

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public; if
your response contains such data, you should identify the data for redaction or removal along with
corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
Cloud Oversight Resulted in Unsubstantiated and                                                                         14-P-0332
Missed Opportunities for Savings, Unused and
Undelivered Services, and Incomplete Policies




                                   Table of Contents

 Chapters
   1   Introduction .........................................................................................................    1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Scope and Methodology ............................................................................              3

   2   Improvements Needed in Email Cloud Implementation....................................                                     5

                 Improvements Needed for Email Cloud Analysis........................................                            5
                 EPA Paid for Email and Collaboration Moving Services
                     Not Received .....................................................................................          6
                 Conclusions ...............................................................................................     7
                 Recommendations .....................................................................................           8
                 Agency Response to Draft Report and OIG Evaluation ..............................                               8

   3   Improvements Needed in Infrastructure-as-a-Service
       Cloud Implementation .........................................................................................            10

                 IaaS Cloud Contract Could Not Be Utilized to
                     Host Applications ................................................................................          10
                 Analysis for Continued Use of IaaS Needs to Be Performed .....................                                  12
                 Conclusions ...............................................................................................     14
                 Recommendations .....................................................................................           14
                 Agency Response to Draft Report and OIG Evaluation ..............................                               15

   4   OEI Did Not Evaluate Whether Applications Could Be
       Retired, Consolidated and Moved to the Cloud.................................................                             16

                 OEI Did Not Evaluate Applications for Retirement,
                     Consolidation and Cloud Migration......................................................                     16
                 Conclusions ...............................................................................................     17
                 Recommendations .....................................................................................           18
                 Agency Response to Draft Report and OIG Evaluation ..............................                               18

   5   Improvements Needed in Documented Processes for
       Cloud Implementation .........................................................................................            19

                 Cloud Computing Policies and Procedures Need Improvement .................                                      19
                 Conclusions ...............................................................................................     20
                 Recommendation .......................................................................................          21
                 Agency Response to Draft Report and OIG Evaluation ..............................                               21



                                                          -continued-
Cloud Oversight Resulted in Unsubstantiated and                                                                       14-P-0332
Missed Opportunities for Savings, Unused and
Undelivered Services, and Incomplete Policies



   Status of Recommendations and Potential Monetary Benefits .............................                                     22



 Appendices
   A    OEI Response to Draft Report and OIG Comments .......................................                                  24

   B    OARM Response to Draft Report and OIG Comments ..................................                                      32

   C    Distribution .......................................................................................................   37
                                   Chapter 1
                                   Introduction
Purpose

            We sought to determine whether the U.S. Environmental Protection Agency (EPA)
            had: (1) implemented its cloud initiatives in accordance with the Federal Cloud
            Computing Strategy and associated requirements, and (2) developed formal
            processes to monitor cloud vendors.

Background

            In December 2010, the U.S. Chief Information Officer (CIO) issued a
            “Cloud First” policy within the 25-Point Implementation Plan to Reform Federal
            Information Technology Management published by the White House. In
            February 2011, the U.S. CIO also issued the Federal Cloud Computing Strategy
            that identified cloud computing as having the potential to play a major part in
            achieving efficiencies in the federal government’s information technology (IT)
            environment. Efficiencies potentially improved by cloud computing include asset
            utilization and the reduction of duplicative systems.

            According to the National Institute of Standards and Technology (NIST), cloud
            computing is a model for enabling convenient, on-demand network access to a
            shared pool of configurable computing resources—such as computer servers,
            storage, software applications and Web services—that can be provisioned and
            released with minimal management effort or service provider interactions.
            In other words, in a cloud environment, IT resources are available to users as
            needed using a pay-as-you-go business model.

            The Government Accountability Office has indicated that cloud computing can
            potentially provide several benefits over current systems, including faster
            deployment of computing resources, a decreased need to buy hardware or to build
            data centers, and more robust collaboration capabilities. Per the Federal Cloud
            Computing Strategy, cloud computing can also:

                  Provide lower individual usage costs and centralize infrastructure costs via
                   realized economies of scale.
                  Allow users to pay for what they consume.
                  Allow users to increase or decrease their usage.
                  Leverage the shared underlying resources.




14-P-0332                                                                                     1
            Responsible Offices

            The EPA’s Office of Environmental Information (OEI) and Office of
            Administration and Resources Management (OARM) have key responsibilities
            regarding the EPA’s migration to the cloud. Within those two offices:

                  OEI’s Office of Technology Operations and Planning provides technology
                   services and manages the EPA’s IT investments and infrastructure. The
                   Office of Technology Operations and Planning oversees IT operations and
                   security (including IT investment management), enterprise architecture,
                   application development and hosting, high performance computing, and
                   development of policies and standards to guide IT expenditures and
                   operations.

                  OARM’s Office of Acquisition Management is responsible for planning,
                   awarding and administering contracts for the agency, including issuing
                   and interpreting acquisition regulations, administering training for
                   contracting and program acquisition personnel, providing advice and
                   oversight to regional procurement offices, and providing IT improvements
                   for acquisition.

            Guidance Issued

            On January 24, 2011, the EPA’s Assistant Administrator OEI (the EPA’s CIO)
            issued a memorandum in reference to the 25-Point Implementation Plan to Reform
            Federal Information Technology Management published by the White House. The
            memorandum established OEI’s National Computer Center (NCC) as the agency’s
            focal point for acquiring cloud solutions and appointed OEI as the lead for
            developing a cloud computing strategy for both private and public cloud usage.
            Although the memorandum indicated that the NCC is the focal point for acquiring
            cloud solutions, OEI indicated that this is only limited to efforts to provide cloud
            services via the EPA’s internal private cloud services provided by the NCC and
            external cloud services obtained by the NCC via the General Services
            Administration (GSA) Infrastructure as a Service (IaaS) Bulk Purchase Agreement.

            The EPA’s Assistant Administrator and CIO issued a memorandum on Cloud
            Computer Services Security Requirements on September 6, 2011, to provide
            information for when considering cloud computing solutions. The memo indicates
            that the EPA needs to conduct control assessments on the cloud provider’s systems
            to determine what, if any, controls need to be implemented by the provider or by
            the EPA. This memo also indicates that systems used by the cloud provider shall
            obtain an Authorization to Operate by an EPA official before EPA information is
            stored, processed or transmitted on the systems.

            Additionally, the EPA’s CIO approved a System Life Cycle Management Policy
            and Procedure on September 21, 2012. The policy applies to systems developed on
            behalf of the EPA by vendors irrespective of where the IT systems are hosted,


14-P-0332                                                                                    2
                 including cloud-based solutions. The System Life Cycle Management Procedure
                 also indicated that if the application will be hosted in a cloud-based environment
                 the system must adhere to the additional controls published by the Federal Risk and
                 Authorization Management Program.1

                 The EPA also issued Enterprise Roadmap 2012, which states that in fiscal year
                 (FY) 2012 all of the EPA will be able to obtain cloud computing services from a
                 GSA-authorized external cloud services vendor authorized for low-sensitivity
                 applications and an EPA-hosted private cloud authorized for medium-sensitivity
                 applications. The Roadmap indicated that OEI will provide support for evaluating
                 cloud computing alternatives as part of the Capital Planning and Investment
                 Control process, and will assist transitioning agency applications into the cloud
                 computing infrastructure. Furthermore, the Roadmap stated that the EPA will
                 default to cloud-based solutions whenever a secure, reliable and cost-effective
                 cloud option exists.

Scope and Methodology
                 We performed this audit from January 2013 to April 2014 at the EPA
                 headquarters in Washington, D.C.2 We performed this audit in accordance with
                 generally accepted government auditing standards. Those standards require that
                 we plan and perform the audit to obtain sufficient and appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on the audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for
                 our findings and conclusions based on our audit objectives.

                 As a part of this review, we looked at the following two EPA cloud initiatives:

                     1. My Workplace: OEI awarded a vendor a contract to provide Software-
                        as-a-Solution for an email and collaboration suite. This contract also
                        requires the vendor to provide support for OEI’s internal infrastructure
                        used to host internal email and other applications. OEI has indicated that
                        this infrastructure will not go away before 2019. Services provided by
                        My Workplace include email, calendar, contacts, collaborative document
                        editing and workspaces, Web conferencing, and other collaboration
                        activities.

                     2. Infrastructure-as-a-Service (IaaS) contract: The OEI awarded its IaaS
                        contract through a GSA Blanket Purchase Agreement. The EPA plans to
                        use this IaaS contract to make cloud computing resources available

1
  The Federal Risk and Authorization Management program is a governmentwide program that provides a
standardized approach to security assessment, authorization, and continuous monitoring for cloud products and
services.
2
  The audit was performed in Washington, D.C., but we conducted video and telephone interviews with EPA points
of contact who are located in North Carolina.



14-P-0332                                                                                                        3
                   agencywide for low-sensitivity applications through the EPA’s Working
                   Capital Fund.

            We reviewed the EPA’s policies and procedures related to cloud computing to
            determine whether they were aligned and implemented in accordance with federal
            cloud computing policies. We limited the review of the My Workplace and IaaS
            initiatives to: (1) planning of the projects, and (2) the extent of the use of these
            cloud initiatives. We did not perform detailed reviews of the associated contracts.
            We made inquiries to EPA regions and program offices to collect information
            related to their plans for migrating applications from the EPA’s infrastructure that
            was used to host internal email. We analyzed the agency’s key cloud computing
            documents and related documentation. We examined the Federal Acquisition
            Regulation (FAR) and guidance published by the Office of Management and
            Budget (OMB) and NIST to gain an understanding of federal cloud computing
            recommendations and requirements.

            Further, we interviewed and collected documentation from OARM’s Office of
            Acquisition Management and OEI’s Office of Technology Operations and Planning
            management and staff responsible for planning, procuring, maintaining, and
            monitoring the agency’s cloud computing services. We found no significant
            deficiencies associated with the EPA’s monitoring of the cloud vendors.




14-P-0332                                                                                      4
                                              Chapter 2
    Improvements Needed in Email Cloud Implementation
                   The EPA’s cost-benefit analysis of and modifications for the agency’s email
                   cloud computing implementation was not performed in compliance with EPA and
                   federal guidance. OMB Circular A-94 Revised indicates that a cost-benefit
                   analysis is recommended as the technique to use in a formal economic analysis of
                   government programs and projects.3 The cost-benefit analysis included in-house
                   costs normally excluded. Also, the OARM contracting officer did not negotiate
                   and issue a written modification prior to performance and did not seek an
                   equitable reduction in price to the contract for work not performed as specified in
                   the contract, as required by the FAR.4 As a result, by including costs that would
                   not normally be considered in a cost-benefit analysis, it is questionable whether
                   the agency will realize the estimated savings used to justify moving email to the
                   cloud. Additionally, inaction by the contracting officer resulted in the agency
                   paying for services it did not receive.

Improvements Needed for Email Cloud Analysis
                   The EPA’s cost-benefit analysis, included in the Collaborative Tools in the Cloud
                   Business Case Presentation for migrating email and collaborative tools, dated
                   April 2012, did not adhere with EPA and federal guidance. Table 1 shows the
                   estimated costs OEI used in 2012 to justify its decision for not keeping email
                   services in house and migrating email to the cloud. Using OEI’s cost-benefit
                   analysis, there is an estimated savings of $3,481,000, based on FY 2012 estimated
                   costs derived from the Working Capital Fund billing rates as of April 2012.

Table 1: OEI estimated cost projections
                                                        FY 2013           FY 2014         FY 2015           Totals
    OEI’s estimated costs for keeping email
                                                       $12,061,000      $12,061,000      $12,061,000     $36,183,000
    services in house in FY 2012
    OEI’s estimated costs for moving email to
                                                        14,221,000         9,454,000       9,027,000      32,702,000
    the cloud
    OEI’s estimated savings                            ($2,160,000)      $2,607,000       $3,034,000      $3,481,000
Source: Information provided by OEI.


                   The EPA’s System Life Cycle Management Requirements Guidance refers to
                   OMB Circular A-94 Revised for guidance when performing a cost-benefit
                   analysis. OEI’s Business Case Presentation made April 2012 included the cost-
                   benefit analysis that used working capital fund figures that included $2,142,000 in

3
    See OMB Circular A-94 Revised Section 5.
4
    The Code of Federal Regulations (CFR), in 48 CFR Subsections 42.302(b), 43.204(b)(2), 43.103, and 43.201.


14-P-0332                                                                                                       5
                  hardware costs used in the estimated cost of keeping the email services in house.
                  OEI representatives indicated that these hardware costs included costs for
                  administrative support and sunk costs such as hardware depreciation.

                  Per OMB Circular A-94 Revised, these costs are not normally included and
                  should be excluded from a cost-benefit analysis.5 The administrative cost is an
                  indirect cost that cannot be assigned to one service but, rather, is a cost divided
                  among all OEI services. Additionally, the depreciation cost reflects funds spent
                  and is not a current cash expense. By including costs for the in-house alternative
                  that would not normally be considered in a cost-benefit analysis, it is questionable
                  whether the agency will realize the estimated savings indicated. Additionally, the
                  cost-benefit analysis did not include a statement of the assumptions, the rationale
                  behind them, and a review of strengths and weaknesses as required by OMB
                  Circular A-94 Revised.6

                  OEI pointed out that it believed that the email and collaborative tools cloud
                  initiative was an acquisition of commercial-type services by government or
                  contractor operation and was exempt from OMB Circular A-94 Revised. That
                  circular indicates that OMB Circular A-76 Revised is the guidance for the
                  acquisition of commercial-type services by government or contractor operation.7
                  Subsequent to the issuance of the draft report, OEI indicated that they now
                  believed OMB A-94 Revised was applicable.

                  Since OEI did not perform a cost-benefit analysis that was in compliance with
                  OMB guidelines, it is questionable whether the agency will realize its projected
                  cost savings.

EPA Paid for Email and Collaboration Moving Services Not Received
                  The EPA paid for services not received on the contract to move the EPA’s email
                  and collaboration services to the cloud. The contract, as modified, included the
                  requirement for the vendor to transfer all the EPA’s email to the cloud within
                  5 months of the award of the contract.

                  After entering into the contract, OEI indicated that the vendor stated it could not
                  transfer all of the email in the timeframe required by the contract. As a result,
                  OARM’s contracting officer orally allowed the vendor to transfer only 30 days’
                  worth of email. Even though the vendor did not perform the work agreed to in the
                  contract, the contracting officer did not issue a cure notice8 or seek to renegotiate
                  the price of the contract with an equitable reduction in price.



5
  OMB Circular A-94 Revised Section 6 subsection a.
6
  OMB Circular A-94 Revised Section 5 subsection c.3.
7
  OMB Circular A-94 Revised Section 4 subsection b.2.
8
  A cure notice notifies a vendor that it is in default of a contract. Cure notices specify failures and suggested cures.


14-P-0332                                                                                                                   6
                 In addition to paying the vendor full price for agreed-to services not performed as
                 specified in the contract, the EPA is incurring additional costs for maintaining
                 emails not migrated to the cloud. OEI indicated the cost of maintaining the old
                 email was low, but was unable to provide the Office of Inspector General (OIG)
                 with the annual cost. Additionally, OEI is planning to incur the annual cost of
                 providing employees with access to the email that was not moved off of the legacy
                 email platform until at least FY 2019.

                 The FAR specifies that:

                        Contracting officers are responsible for ensuring performance of all
                         necessary actions for effective contracting, ensuring compliance with the
                         terms of the contract and safeguarding the interests of the United States.9

                        If repair/replacement or re-performance will not correct the defects or is not
                         possible, the government may seek an equitable price reduction or adequate
                         consideration for acceptance of nonconforming supplies or services.10

                        If the termination is predicated on the contractor failing to perform some
                         of the other provisions of the contract (such as not furnishing a required
                         performance bond) or so fails to make progress as to endanger
                         performance of the contract, the contracting officer shall give the
                         contractor written notice specifying the failure and providing a period of
                         10 days (or longer period as necessary) in which to cure the failure. Upon
                         expiration of the 10 days (or longer), the contracting officer may issue a
                         notice of termination for default unless it is determined that the failure to
                         perform has been cured.11

                 OARM’s contracting officer indicated that OEI did not request the negotiation of a
                 lower price. As a result, the EPA paid full price for agreed-to services that were not
                 performed as specified in the contract. In addition, the EPA has to incur additional
                 costs of maintaining all email not transferred to the cloud on in-house systems until
                 at least FY 2019. OEI was unable to provide the OIG with the cost of storing and
                 providing access to the historic email that was not moved to the cloud.

Conclusions
                 It is questionable whether the agency will realize its projected cost savings because
                 the EPA did not perform a documented cost-benefit analysis in compliance with
                 OMB guidance. Additionally, the EPA paid for services not received and incurred
                 additional expenses without a written modification to the contract and without
                 seeking an equitable reduction in price.


9
  48 CFR subsection 1.602-2.
10
   48 CFR Subsection 52.212-4 (a).
11
   48 CFR Subsection 49.402-3 (d).


14-P-0332                                                                                                7
Recommendations
             We recommend that the Assistant Administrator for Environmental Information:

                 1. Develop and implement an internal independent oversight process to
                    ensure that documented cost-benefit analyses are performed in compliance
                    with the proper OMB circular prior to OEI outsourcing IT initiatives.

             We recommend that the Assistant Administrator for Administration and
             Resources Management:

                 2. Develop and conduct training and provide oversight to help ensure
                    contracting officers:

                       a. Issue cure notices when they become aware that a vendor will not
                          meet its contractual obligations.
                       b. Negotiate equitable price reductions when vendors are not able to
                          fulfill their contractual obligations.
                       c. Add written amendments to contracts for all contract modifications.

Agency Response to Draft Report and OIG Evaluation

      We received responses to the draft report from the OEI and OARM. Based on the OEI
      and OARM responses, we made changes as needed. Appendix A contains the OEI
      responses and appendix B contains the OARM responses, along with our comments.

      OEI did not concur with recommendation 1 and offered an alternative recommendation.
      We did not accept the proposed alternative recommendation. OEI did not provide
      sufficient information to allow us to determine whether its intended action would satisfy
      the intent of our recommendation. However, based on discussions with the agency, we
      modified the recommendation to more clearly describe our intent.

      In the draft report, we made a recommendation that OARM determine the difference in
      cost between not moving all the email to the cloud within the agreed-to time frames, as
      specified in the contract, and just moving 30 days of email, and seek an equitable
      reduction in price. We evaluated OARM’s comments and removed this recommendation
      because OARM indicated in its response to the draft report that it had issued a written
      modification for the change in scope subsequent to the OIG informing the Office of
      Acquisition Management that the contracting officer failed to obtain a written
      modification specifying that the contractor only move 30 days of email. This written
      modification was issued within 1 month after the OIG notified OAM management that
      the contracting officer failed to obtain the written modification for the change in scope,
      almost 7 months after the oral agreement was reached, and almost 5 months after the
      orally agreed-to change in scope was executed. We confirmed that the agency took the
      stated actions. However, we were unable to verify that the modification would achieve



14-P-0332                                                                                          8
      the desired results due to the time constraints of the audit and the period of performance
      of the contract.

      OARM concurred with the remaining OARM recommendation in this chapter. This
      recommendation is resolved and OARM indicated that it has taken actions to address the
      recommendation. We confirmed that OARM took the stated action. However, due to the
      time constraints of the audit, we were not able to validate that the actions achieved the
      desired results.




14-P-0332                                                                                          9
                                             Chapter 3
                   Improvements Needed in
      Infrastructure-as-a-Service Cloud Implementation
                 The EPA entered into and approved payments for an Infrastructure-as-a-Service
                 (IaaS) contract that the EPA was not able to utilize for hosting applications
                 because it did not meet federal requirements.12 Additionally, OEI has not
                 performed documented analyses to determine whether the EPA should continue
                 with this IaaS contract and/or upgrade its internal infrastructure to meet all of the
                 NIST essential characteristics of cloud computing. The OMB and FAR establish
                 requirements when contracting for IT services such as cloud services. OEI and
                 OARM’s Office of Acquisition Management did not follow or were unaware of
                 specific requirements that impacted contracts associated with the EPA’s cloud
                 initiatives. As a result, there is no documentation to support whether it is in the
                 EPA’s best interest to continue with the IaaS contract and/or upgrade its internal
                 infrastructure to meet all of the NIST essential characteristics of cloud computing.

IaaS Cloud Contract Could Not Be Utilized to Host Applications
                 The EPA entered into a contract with a GSA-approved external cloud provider for
                 IaaS cloud computing services that could not be utilized to host applications
                 because the vendor’s cloud service did not meet the federal Trusted Internet
                 Connections (TIC) and Internet Protocol version 6 (IPv6) requirements.13
                 Furthermore, the EPA’s information security procedures did not meet federal TIC
                 requirements.14 Specifically, the procedure states that all remote access for
                 moderate and high information systems be routed through a limited number of
                 managed access control points and refers to OMB memoranda on the TIC. The
                 EPA’s information security procedures contradict the TIC Reference Architecture
                 Document version 2, which specifies that all external connections are secured
                 through a TIC access point.15 The objectives of the TIC initiative are to optimize
                 and standardize the security of individual external network connections currently
                 in use by federal agencies, including connections to the Internet; and to improve
                 the federal government’s security posture and incident response capability

12
   IaaS is a cloud infrastructure where the consumer is provided the capability to provision processing, storage,
networks and other fundamental computing resources where the consumer is able to deploy and run arbitrary
software, which can include operating systems and applications. The consumer does not manage or control the
underlying cloud infrastructure but has control over operating systems, storage and deployed applications; and
possibly limited control of select networking components (e.g., host firewalls).
13
   An Internet Protocol address is a unique number used to identify computers on a network. Internet Protocol
version 4, which had a limited number of Internet Protocol addresses, has become depleted. IPv6 was developed to
establish more levels of addressing hierarchy with a larger pool of Internet Protocol addresses.
14
   Information Security-Interim Access Control Procedures V3.2 (CIO-2150.3-P-01.1).
15
   The Department of Homeland Security’s Trusted Internet Connections (TIC) Reference Architecture Document
Version 2.0 (September 1, 2011).


14-P-0332                                                                                                       10
                 through the reduction and consolidation of external connections and by providing
                 enhanced monitoring and situational awareness of external network connections.
                 The OIG concludes that entering into contracts and having procedures that do not
                 comply with the TIC requirements puts the EPA at risk of not realizing the
                 objectives of the initiative.

                 OMB Memorandum M-05-22 originally set June 2008 as the date by which all
                 agencies’ infrastructures must use IPv6. Additionally, OMB Memorandum for
                 Chief Information Officers of Executive Departments and Agencies: Transition to
                 IPv6, dated September 28, 2010:

                         Extended the due date to the end of FY 2012 for public-facing servers and
                          the end of FY 2014 for internal client applications that communicate with
                          public Internet servers and supporting enterprise networks.

                         Specified that all agencies ensure that agency procurements of networked
                          IT comply with FAR requirements for use of the USGv6 Profile and Test
                          Program for the completeness and quality of their IPv6 capabilities.16

                 Furthermore, the FAR states that a waiver is required from the agency’s CIO
                 when acquiring information technology that does not comply with IPv6.17

                 OEI representatives indicated that they were aware of and included the TIC
                 requirement in their original Request for Quote package. However, based on
                 questions received from the vendor community, OEI believed that there were no
                 known solutions to enable TIC provisioning by the provider. OEI explained that it
                 made the choice to remove the TIC requirement because OEI believed that the
                 TIC Reference Architecture provided for the hosting of unrestricted access
                 services without a TIC. OEI indicated that, subsequent to the award, the EPA’s
                 CIO issued the Environmental Protection Agency Information Security Policy
                 (CIO-2150.3) and associated procedures. OEI also indicated that the EPA’s
                 Senior Agency Information Security Officer stated that these procedures require
                 that all the EPA services—including unrestricted access services—must be
                 accessed through the TIC. Although the EPA indicated it was properly advised,
                 the Environmental Protection Agency Information Security Policy only indicates
                 that all remote access for moderate and high information systems and not all
                 external connections, as required by OMB, must be routed through a limited
                 number of managed access control points.

                 OEI indicated that it requested IPv6 capability in the Performance Work
                 Statement within the original Request for Quote package. However, OEI stated
                 that the vendor indicated that it could not support IPv6 because the vendor had not
                 implemented IPv6 across its external cloud services but that the vendor

16
   USGv6 is the name provided by NIST to the development of the technical infrastructure necessary to support
wide-scale adoption of IPv6 in the U.S. government.
17
   48 CFR Subsection 11.002(g).


14-P-0332                                                                                                       11
            committed to providing an IPv6-compliant release by the end of 2013. In addition,
            the contracting officer was unaware that a waiver needed to be issued by the CIO
            prior to entering into contracts that did not meet the requirements for use of the
            USGv6 Profile and Test Program for the completeness and quality of their IPv6
            capabilities. The Office of Acquisition Management indicated that better training
            could have made the contracting officer aware of the FAR’s IPv6 requirements
            and oversight may have detected the error.

            The EPA incurred costs on the contract that could not be utilized for hosting
            applications until a solution for TIC and IPv6 requirements were met.
            We obtained all the invoices for the vendor’s cloud environment. As of March
            2014, the EPA incurred approved invoices associated with this contract totaling
            $74,241 from July 6, 2012, to March 29, 2013. OEI indicated that the vendor's
            cloud environment has been made to be IPv6 compliant and that traffic has been
            routed through the EPA TIC; additionally, OEI has indicated that its Office of
            Information Collection placed an application into production in the vendor’s
            cloud environment in March 2014. OEI indicated that there has been no activity
            on the IaaS Cloud contract since last year, that the system was only placed in
            production in March 2014 and that no invoice has yet been submitted for payment
            for this activity by the vendor.

Analysis for Continued Use of IaaS Needs to Be Performed
            OEI did not perform an analysis to determine whether it should continue with the
            IaaS contract or use the resources for the external IaaS cloud environment on
            other initiatives. Additionally, OEI has not performed an analysis for turning its
            internal hosting into an internal private cloud that meets all of the NIST essential
            characteristics of cloud computing.

            On June 25, 2012, the EPA entered into a contract with a GSA-approved external
            cloud provider for IaaS cloud computing services without performing a
            cost-benefit analysis. Instead, OEI indicated that it pursued an indefinite
            delivery/indefinite quantity contract to minimize their risk and cost exposure
            while providing an opportunity to explore external cloud service options for the
            EPA. OEI representatives indicated that the EPA wanted to provide its customers
            with an external cloud option to supplement the EPA’s internal hosting services,
            which OEI referred to as a private cloud. The EPA renewed the contract for a
            second year.

            OEI indicated that to use the external cloud service offering, the application
            owners would have to incur additional costs for OEI to develop services not
            offered by the cloud provider and/or pay additional costs for premium services
            offered by the cloud provider. OEI indicated that the costs of these services are
            already included in the cost for hosting applications using the EPA’s internal
            hosting services. On April 25, 2013 (10 months into the contract which OEI
            renewed), an OEI representative indicated that they:


14-P-0332                                                                                       12
                           Now have a “pretty” clear understanding of the integration requirements,
                            obstacles and/or gaps in capabilities associated with using the vendor’s
                            cloud offering.

                           Believed that given the additional costs necessary to address the gaps in
                            the vendor’s cloud offering, the cost of the vendor’s cloud services would
                            likely be equal to or greater than the cost to use the EPA’s National
                            Computer Center internal services.

                   OEI also indicated that the EPA’s internal hosting environment did not meet all of
                   the essential characteristics of cloud computing as defined by NIST. OEI did not
                   perform a documented analysis to determine whether it would be in the EPA’s
                   best interest to:

                           Convert the internal infrastructure to meet all of the NIST essential
                            characteristics of cloud computing.

                           Continue operating as is without meeting the “on-demand self-service”
                            NIST characteristic of cloud computing.

                   OMB Circular A-130 Revised indicates that agencies will integrate planning for
                   information systems with plans for resource allocation and use, including
                   budgeting, acquisition and use of information technology.18

                   Reason for not performing a cost-benefit analysis for using an external
                   vendor’s cloud services: OEI indicated that it did not do a cost-benefit analysis
                   associated with the vendor’s contract for external cloud services because, when
                   pursuing the contract, OEI understood that the federal cloud services landscape
                   was relatively immature and evolving. Instead, OEI indicated that it pursued an
                   indefinite delivery/indefinite quantity contract to minimize their risk and cost
                   exposure while providing an opportunity to explore external cloud service options
                   for the EPA.

                   Reason for not performing cost-benefit analysis to convert its internal
                   infrastructure services to meet all of the NIST essential characteristics of
                   cloud computing: OEI indicated that it believed, based upon its experience, that:
                           Establishing self-service tools for the National Computer Center private
                            cloud services would require a substantial investment that would not be
                            cost effective for its limited market.

                           The integration of self-service IT resource allocation with Federal
                            Information Security Management Act authorization and financial
                            accountability would require a complex customization and ongoing
                            maintenance in addition to a commercial off-the-shelf tool investment.

18
     OMB Circular A-130 Revised Section 8 Subsection a.(e).


14-P-0332                                                                                              13
                  There has been a low volume of requests for new servers and/or changes
                   to resource allocations and OEI believed that making an investment in
                   large-scale self service was not practical.

            By not performing these analyses, the EPA does not know whether it would be
            more beneficial to:

                  Continue with the IaaS contract (including the investments the EPA would
                   have to make to address the integration requirements, obstacles and gaps
                   identified) or use the resources for the external IaaS cloud environment on
                   other initiatives.

                  Continue using the internal hosting services as-is or upgrade them to meet
                   all the NIST characteristics of the cloud computing environment

Conclusions
            The EPA entered into contracts for cloud computing services without being aware
            of or following specific federal requirements. As a result, the EPA entered into and
            paid for a contract that the EPA was not able to utilize for hosting applications until
            21 months after the contract was signed.

Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

               3. Perform a formal documented analysis to determine whether it is in the
                  EPA’s best interest to continue with the IaaS contract or free the financial
                  resources (including the investments the EPA would have to make to
                  address integration requirements, obstacles and gaps identified) for other
                  uses.

               4. Prior to entering into any future IaaS contracts, perform a formal
                  documented analysis to determine whether such contracts are in the EPA’s
                  best interest that includes the investments the EPA would have to make to
                  address integration requirements, obstacles and gaps identified as a result
                  of the current IaaS contract.

               5. Modify the Information Security-Interim Access Control Procedures to
                  adhere to the TIC Reference Architecture Document, which specifies that
                  all external connections are secured through a TIC access point.

               6. Perform a formal documented analysis to determine whether it is in the
                  EPA’s best interest to continue using the internal hosting services as-is or
                  to upgrade them to establish an internal private cloud that meets all
                  characteristics of the NIST definition of a cloud.


14-P-0332                                                                                      14
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               7. Establish guidance, formal oversight processes and training to ensure that
                  the requirements for use of the USGv6 Profile and Test Program for the
                  completeness and quality of their IPv6 capabilities are met within all
                  applicable IT contracts or that a waiver is obtained from the EPA’s CIO
                  prior to issuing an applicable IT contract that does not meet the
                  requirements, as required by the FAR.

Agency Response to Draft Report and OIG Evaluation

            We received responses to the draft report from the OEI and OARM and made
            changes as needed. Appendix A contains the OEI responses and appendix B
            contains the OARM responses, along with our comments.

            OEI concurred with the recommendations in this chapter. However, OEI did not
            provide sufficient information to allow us to determine whether its intended
            actions would satisfy the intent of our recommendations.

            OARM concurred with recommendation 7. This recommendation is resolved and
            OARM indicated that it has taken actions to address the recommendation. We
            confirmed that OARM took the specified actions. However, due to the time
            constraints of the audit, we did not verify that the actions effectively corrected the
            deficiency.




14-P-0332                                                                                       15
                                         Chapter 4
     OEI Did Not Evaluate Whether Applications Could Be
        Retired, Consolidated and Moved to the Cloud
                 The EPA did not fully develop or implement a strategy to evaluate the EPA’s
                 entire portfolio of IT applications to determine which applications can be
                 consolidated, retired or moved to the cloud. The Federal Cloud Computing
                 Strategy indicates that successful organizations carefully consider their broad IT
                 portfolios and create roadmaps for cloud deployment and migration. OMB
                 Memorandum M-11-29 states that agency CIOs must focus on eliminating
                 duplication and rationalize their agency’s IT investments.19 OEI representatives
                 indicated that they believed the responsibility for managing the assets in the
                 agency’s IT portfolio belonged to the agency’s program and regional offices and
                 not OEI. The EPA may not realize efficiencies that could be obtained by
                 developing and implementing a strategy to evaluate the EPA’s entire portfolio of
                 IT applications to determine which applications can be consolidated, retired or
                 moved to the cloud.

OEI Did Not Evaluate Applications for Retirement, Consolidation and
Cloud Migration
                 The EPA had not fully developed a strategy to evaluate applications for
                 consolidating similar assets; retiring assets that have reached their end of life; and
                 utilizing the cloud whenever a secure, reliable and cost-effective cloud option
                 exists. The OEI indicated that:

                        The platform, used to support internal email, would not go away before
                         FY 2019. Furthermore, OEI indicated that the platform that supported
                         internal email also supported numerous agency-developed and commercial
                         applications. OEI’s plan focused only on moving the email component.

                        OEI performed an analysis that determined moving email to the cloud
                         would not negatively impact the applications that remained on the
                         platform also used for internal email.

                        OEI did not have or implement a strategy to identify which applications
                         can be consolidated, retired or moved to the cloud or another platform for
                         the more than 6,000 active applications that remained on the platform used
                         for internal email.


19
     OMB Memorandum M-11-29 Point 2 Commodity IT.


14-P-0332                                                                                            16
                    Creating roadmaps for cloud deployment and migration provides the EPA the
                    opportunity to focus on eliminating duplicate IT investments as required by OMB
                    Memorandum M-11-29.

                    The EPA’s CIO and OEI have the responsibility to manage the EPA’s IT
                    portfolio, but OEI representatives indicated that OEI does not manage the IT
                    portfolio for the agency. OEI representatives indicated that OEI supports the
                    Capital Planning and Investment Control, System Life Cycle Management, and
                    Enterprise Architecture processes that support investment owners in considering
                    cloud options. The U.S. Clinger-Cohen Act specifies that agencies’ CIOs are
                    responsible for promoting the effective and efficient design and operation of all
                    major information resources management processes for the executive agency.20
                    OMB Memorandum M-11-29 adds additional responsibilities to the CIO,
                    including the responsibility over the entire IT portfolio for an agency, to the
                    statutory responsibilities provided through the Clinger-Cohen Act. The EPA’s
                    1200 Delegations Manual provides for the delegation of CIO responsibilities,
                    including the responsibilities assigned to the CIO within the Clinger-Cohen Act.
                    The manual did not specifically list instructions for the delegation of promoting
                    the effective and efficient design and operation of all the agency’s major
                    information resources or the CIO’s responsibility over the entire IT portfolio. The
                    manual did indicate that the CIO’s responsibilities not specifically listed in the
                    manual may be delegated to OEI’s office directors, who may only redelegate
                    these authorities to the division director level or equivalent.

                    By not evaluating the IT portfolio and creating roadmaps, the EPA may not
                    realize efficiencies that could be obtained by moving to the cloud, consolidating
                    similar assets, and retiring assets that have reached their end of life. These
                    applications may have owners in different program offices. As a result, if not
                    managed centrally, there is an increased possibility that multiple systems
                    performing similar functions would not be consolidated. This may result in the
                    EPA missing the opportunity to reduce redundant costs. This analysis and
                    associated roadmaps should not be limited to the applications remaining on the
                    platform that supported internal email, but should be extended to the EPA’s entire
                    IT portfolio.

Conclusions
                    The OMB Memorandum M-11-29 and Federal Cloud Computing Strategy
                    provide guidance for consolidating IT assets and developing cloud roadmaps. By
                    not centrally managing the EPA’s entire IT portfolio as a whole, the EPA could
                    be missing the opportunity to reduce redundant costs.




20
     40 U.S. Code Subtitle III Subsection 11315(b)(3).


14-P-0332                                                                                            17
Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

                8. Develop and implement a strategy to perform a documented analysis of
                   the applications remaining on the platform that supported the EPA’s
                   internal email to determine which applications should be consolidated,
                   retired and/or moved to the cloud or another platform.

               9.   Develop and implement a strategy to perform a documented analysis of
                    all of the EPA’s applications to determine which applications should be
                    consolidated, retired and/or moved to the cloud.

               10. Create and follow a formal process to implement the consolidation,
                   retirement and/or cloud migration of applications as identified in response
                   to recommendations 8 and 9.

Agency Response to Draft Report and OIG Evaluation

            We received a response to the draft report from the OEI and made changes as
            needed. Appendix A contains the OEI response along with our comments.

            OEI did not concur with the recommendations in this chapter and offered alternate
            recommendations. We did not accept the proposed alternative recommendations.
            OEI did not provide sufficient information to allow us to determine whether its
            intended actions would satisfy the intent of our recommendations.




14-P-0332                                                                                     18
                                              Chapter 5
         Improvements Needed in Documented Processes
                   for Cloud Implementation
                   The EPA’s policies and procedures for moving to the cloud are incomplete and
                   need improvement. OMB Circular A-123, Management’s Responsibility for
                   Internal Control, specifies that management is responsible for developing and
                   implementing effective internal controls, including policies and procedures.21
                   Although OEI recognized the need for these additional policies and procedures,
                   it was not made a priority, resulting in OEI indicating during a briefing with the
                   OIG that the additional policies and procedures were no longer needed. Without
                   fully developed and implemented formal policies and procedures, EPA
                   management does not have reasonable assurance that the agency’s migration to the
                   cloud will be effective, efficient, and in compliance with applicable laws and
                   regulations.

Cloud Computing Policies and Procedures Need Improvement
                   The EPA’s policies and procedures for cloud computing are incomplete and need
                   improvement. The policies and procedures did not include guidance that should
                   be included based on the 25 Point Implementation Plan to Reform Federal IT and
                   Federal Cloud Computing Strategy. For example, the policies and procedures did
                   not provide detailed instructions for application owners to use for:

                           Assessing and classifying applications in the EPA’s IT portfolio for
                            moving to the cloud
                           Creating roadmaps for cloud deployment and migration.
                           Evaluating whether a secure, reliable and cost-effective cloud option exists
                            for all new applications and, if so, ensuring that a cloud-based solution is
                            used.

                   The EPA has the following guidance documents which address cloud migration:

                           Assistant Administrator and CIO Memorandum (January 2011) addressing
                            the White House’s 25-Point Implementation Plan to Reform Federal
                            Information Technology Management.
                           Assistant Administrator and CIO Memorandum (September 2011)
                            regarding Cloud Computing Services Security Requirements.
                           System Life Cycle Management Policy and Procedure (September 2012).
                           EPA Enterprise Roadmap 2012



21
     OMB Circular A-123 Sections I and IIC.


14-P-0332                                                                                            19
            Notwithstanding these documents, OEI recognized the need for additional policies
            and procedures associated with cloud computing. In OEI’s Quality Technology
            Subcommittee Briefing: EPA Cloud Computing Strategy Update, presented on
            July 21, 2011, OEI identified to EPA management the need to:

                Develop readiness assessment criteria for applications to migrate to the
                  cloud.
                Assess all the EPA applications and develop a migration schedule for
                  migrating to the cloud.

            In addition, as of May 2013, OEI also listed the development of a cloud policy as
            a medium priority on its policy agenda. This agenda indicated the description of
            this cloud policy was to cover the requirements for the EPA offices that wanted to
            use cloud-based solutions. In November 2013, OEI stated that the cloud policy on
            the agenda was no longer needed. While OEI believes this policy to no longer be
            necessary, management had not taken steps to include these improvements to the
            cloud policies and procedures previously listed or develop additional cloud
            policies and procedures.

            The Federal Cloud Computing Strategy and the 25 Point Implementation Plan to
            Reform Federal IT provide guidance for assessing if and when applications can be
            moved to the cloud based on readiness and value. For example, the strategy
            indicates that agencies should carefully consider their broad IT portfolios and
            create roadmaps for cloud deployment and migration. Additionally, the 25 Point
            Implementation Plan to Reform Federal IT requires that agencies default to cloud-
            based solutions for new IT deployments whenever a secure, reliable, cost-
            effective cloud option exists.

Conclusions
            The responsibility for developing internal controls, including policies and
            procedures, falls upon management. EPA management did not fulfill its
            responsibility when it did not develop complete policies and procedures for
            moving to the cloud. Improvements in documented processes for cloud
            implementation can minimize the waste of money and resources and help ensure
            that the EPA’s migration to the cloud adheres to IT laws and regulations. Without
            fully developed formal policies and procedures for migrating to the cloud, EPA
            management does not have reasonable assurance that the agency’s migration will
            be effective, efficient, and in compliance with applicable laws and regulations.




14-P-0332                                                                                    20
Recommendation
             We recommend that the Assistant Administrator for Environmental Information:

                11. Publish detailed instructions for agency programs to use when considering
                    moving applications to the cloud that fully addresses federal guidance,
                    including but not limited to such areas as:

                        a. Assessing and classifying applications for cloud migration.
                        b. Creating cloud migration roadmaps.
                        c. Performing a documented analysis to determine whether a secure,
                           reliable and cost-effective cloud option exists for all new
                           applications.

Agency Response to Draft Report and OIG Evaluation
      OEI concurred with recommendation 11. However, OEI did not provide sufficient
      information to allow us to determine whether its intended actions would satisfy the intent
      of our recommendations.




14-P-0332                                                                                     21
                             Status of Recommendations and
                               Potential Monetary Benefits
                                                                                                                             POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                 Planned
 Rec.   Page                                                                                                    Completion   Claimed    Agreed-To
 No.     No.                         Subject                            Status1        Action Official             Date      Amount      Amount

  1      8     Develop and implement an internal independent              U       Assistant Administrator for
               oversight process to ensure that documented cost-                  Environmental Information
               benefit analyses are performed in compliance with
               the proper OMB circular prior to OEI outsourcing IT
               initiatives.

  2      8     Develop and conduct training and provide oversight         C       Assistant Administrator for    12/19/13
               to help ensure contracting officers:                                  Administration and
                 a. Issue cure notices when they become aware                      Resources Management
                    that a vendor will not meet its contractual
                    obligations.
                 b. Negotiate equitable price reductions when
                    vendors are not able to fulfill their contractual
                    obligations.
                 c. Add written amendments to contracts for all
                    contract modifications.
  3      14    Perform a formal documented analysis to                    U       Assistant Administrator for
               determine whether it is in the EPA’s best interest to              Environmental Information
               continue with the IaaS contract or free the financial
               resources (including the investments the EPA
               would have to make to address integration
               requirements, obstacles and gaps identified) for
               other uses.

  4      14    Prior to entering into any future IaaS contracts,          U       Assistant Administrator for
               perform a formal documented analysis to                            Environmental Information
               determine whether such contracts are in the EPA’s
               best interest that includes the investments the EPA
               would have to make to address integration
               requirements, obstacles and gaps identified as a
               result of the current IaaS contract.

  5      14    Modify the Information Security-Interim Access             U       Assistant Administrator for
               Control Procedures to adhere to the TIC Reference                  Environmental Information
               Architecture Document, which specifies that all
               external connections are secured through a TIC
               access point.

  6      14    Perform a formal documented analysis to                    U       Assistant Administrator for
               determine whether it is in the EPA’s best interest to              Environmental Information
               continue using the internal hosting services as-is or
               to upgrade them to establish an internal private
               cloud that meets all characteristics of the NIST
               definition of a cloud.

  7      15    Establish guidance, formal oversight processes             C       Assistant Administrator for    10/14/13
               and training to ensure that the requirements for use                  Administration and
               of the USGv6 Profile and Test Program for the                       Resources Management
               completeness and quality of their IPv6 capabilities
               are met within all applicable IT contracts or that a
               waiver is obtained from the EPA’s CIO prior to
               issuing an applicable IT contract that does not
               meet the requirements, as required by the FAR.




14-P-0332                                                                                                                                      22
                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                          Subject                         Status1        Action Official             Date      Amount      Amount

     8       18    Develop and implement a strategy to perform a            U       Assistant Administrator for
                   documented analysis of the applications remaining                Environmental Information
                   on the platform that supported the EPA’s internal
                   email to determine which applications should be
                   consolidated, retired and/or moved to the cloud or
                   another platform.

     9       18    Develop and implement a strategy to perform a            U       Assistant Administrator for
                   documented analysis of all of the EPA’s                          Environmental Information
                   applications to determine which applications should
                   be consolidated, retired and/or moved to the cloud.

    10       18    Create and follow a formal process to implement          U       Assistant Administrator for
                   the consolidation, retirement and/or cloud migration             Environmental Information
                   of applications as identified in response to
                   recommendations 8 and 9.

    11       21    Publish detailed instructions for agency programs        U       Assistant Administrator for
                   to use when considering moving applications to the               Environmental Information
                   cloud that fully addresses federal guidance,
                   including but not limited to such areas as:
                      a. Assessing and classifying applications for
                         cloud migration.
                      b. Creating cloud migration roadmaps.
                      c. Performing a documented analysis to
                         determine whether a secure, reliable and
                         cost-effective cloud option exists for all new
                         applications.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0332                                                                                                                                        23
                                                                                    Appendix A


    OEI Response to Draft Report and OIG Comments
                                        (June 4, 2014)



MEMORANDUM

SUBJECT:        Response to Office of Inspector General Draft Report No. OA-FY13-0095,
               “Cloud Oversight Results in Unsubstantiated and Missed Opportunities for
               Savings, Unused and Undelivered Services, and Incomplete Policies,” dated April
               30, 2014

FROM:          Renee P. Wynn /s/
               Acting Assistant Administrator and Chief Information Officer

TO:            Arthur A. Elkins, Jr.
               Inspector General


Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Following is a summary of the Office of Environmental Information’s (OEI)
overall position, along with its position on each of the draft report recommendations. For those
draft report recommendations with which the OEI agrees, we have provided high-level intended
corrective actions and estimated completion dates to the extent we can. For those report
recommendations with which the OEI does not agree, we have explained our position and
proposed alternatives to recommendations to the extent we can.

OEI’s Overall Position
The OEI recommends the title of the report be revised and believes some of the content of the
report goes beyond the scope of the audit. The OEI concurs on five of the nine OEI
recommendations. The OEI disagrees with four of the nine OEI recommendations. Please note
that the Office of Administration and Resources Management provided their separate response to
the Office of Inspector General.

Attached is OEI’s corrective action plan with additional details. If you have any questions or
concerns about this response, please feel free to contact Harrell Watkins, Acting Director, Office
of Technology Operations and Planning, at 202-566-0672.

Attachment




14-P-0332                                                                                       24
                     OFFICE OF ENVIRONMENTAL INFORMATION (OEI)
                       RESPONSE TO REPORT RECOMMENDATIONS
                               CORRECTIVE ACTION PLAN

OIG Draft Report No. OA-FY13-0095, “Cloud Oversight Results in Unsubstantiated and Missed
Opportunities for Savings, Unused and Undelivered Services, and Incomplete Policies,” dated
April 30, 2014.

Note: The Office of Administration and Resources Management has the lead to respond to OIG
recommendations 2, 3, and 8 which is being provided separately to OIG.

AGREEMENTS

OIG Recommendation 4 (Lead Office: OEI/OTOP/NCC)
Perform a formal documented analysis to determine whether it is in the EPA’s best interest to continue
with the IaaS contract or free the financial resources (including the investments the EPA would have to
make to address integration requirements, obstacles and gaps identified) for other uses.

Corrective Action:
OEI Concurs on the Recommendation – OEI will perform a documented analysis on whether it is in the
EPA’s best interest to continue with the IaaS contract.

Estimated Completion Date: 9/30/2014

 OIG Comment: OEI indicated that it concurs with the recommendation, but its response did
 not provide sufficient information on the intended corrective action to allow us to properly
 determine whether the intent of the recommendation is satisfied.

Discussion of OIG Findings:
Chapter 3: Improvements needed in Infrastructure-as-a-Service Cloud Implementation
OEI does not agree with the conclusion reached in Chapter 3 that OEI was and is unable to use the
contract for IaaS Cloud Services. OEI did use the contract for IaaS services and paid only for the services
it used.

Federal cloud computing was, and continues to be, an emerging and rapidly changing technology
area. Likewise federal regulations and guidance governing information systems operations, security and
procurement were and are evolving and changing to adapt to the cloud computing context. The
combination of changing technology, regulations and guidance produce an implementation context of
high uncertainty.

Given the context of uncertainty, OEI’s approach was prudent and productive. OEI pursued a contracting
method (indefinite delivery with indefinite quantity) that allowed EPA to test and evaluate the provider’s
IaaS cloud technologies and services at a reasonable cost while providing for expansion if or when it was
needed. With this contract EPA pays only for the resources consumed with a $50,000 annual minimum.
This methodology mitigated both costs and risks associated with exploring the emerging technology.

It is a recognized industry best practice to test and evaluate complex technologies prior to broad scale
adoption. As noted in the audit, OEI consumed $74, 241 in services or $24,241 over the minimum annual
amount. These costs incurred were reasonable costs for services consumed given the scope and



14-P-0332                                                                                                 25
complexity of the technology involved. OEI received tangible benefit from the hands-on experience
gained by testing the technologies, methods and procedures used for deploying and operating systems
within specific context of the provider’s IaaS cloud solution. Finally, as noted in the audit, the service
provider mitigated the IPv6 deficiency within the time period provided by the contract and EPA is now
hosting a production application using the services.

OIG Recommendation 5 (Lead Office: OEI/OTOP/NCC)
Prior to entering into any future IaaS contracts, perform a formal documented analysis to determine
whether such contracts are in the EPA’s best interest. That includes the investments the EPA would have
to make to address integration requirements, obstacles and gaps identified as a result of the current IaaS
contract.

Corrective Action:
OEI Concurs on the Recommendation – OEI will perform a formal analysis to determine whether such
contracts are in the EPA’s best interest prior to entering into any future IaaS contract.

Estimated Completion Date: TBD

 OIG Comment: OEI indicated that it concurs with the recommendation, but its response did
 not provide sufficient information on the intended corrective action to allow us to properly
 determine whether the intent of the recommendation is satisfied.

OIG Recommendation 6 (Lead Office: OEI/SAISO)
Modify the Information Security-Interim Access Control Procedures to adhere to the TIC Reference
Architecture Document, which specifies that all external connections are secured through a TIC access
point.

Corrective Action:
OEI Concurs on the Recommendation – The SAISO is in the process of updating the interim control
procedures to reflect NIST SP800-53 rev 4, and will ensure the AC procedure includes appropriate
reference guidance from the Department of Homeland Security’s Trusted Internet Connections (TIC)
Reference Architecture Document Version 2.0 (October 1, 2013).

Estimated Completion Date: 12/31/2014

 OIG Comment: OEI indicated that it concurs with the recommendation, but its response did
 not provide sufficient information on the intended corrective action to allow us to properly
 determine whether the intent of the recommendation is satisfied.

OIG Recommendation 7 (Lead Office: OEI/OTOP/NCC)
Perform a documented analysis to determine whether it is in the EPA’s best interest to continue using the
internal hosting services as-is or to upgrade them to establish an internal private cloud that meets all
characteristics of the NIST definition of a cloud.

Corrective Action:
OEI concurs on the Recommendation – OEI will perform an analysis to determine whether it is in the
EPA’s best interest to continue using the internal hosting as-is or to upgrade to an internal private cloud.




14-P-0332                                                                                                    26
Estimated Completion Date: 9/30/2014

 OIG Comment: OEI indicated that it concurs with the recommendation, but its response did
 not provide sufficient information on the intended corrective action to allow us to properly
 determine whether the intent of the recommendation is satisfied.
 .
OIG Recommendation 12 (Lead Office: OEI/OTOP/MISD)
Publish detailed instructions for agency programs to use when considering moving applications to the
cloud that fully addresses federal guidance, including but not limited to such areas as:
    a. Assessing and classifying applications for cloud migration.
    b. Creating cloud migration roadmaps.
    c. Performing a documented analysis to determine whether a secure, reliable and cost-effective cloud
      option exists for all new applications.

Corrective Action:
OEI concurs that some specific guidance for helping assess whether migrating to the cloud is a viable
option could be helpful to program managers. However, we would note that such guidance should be
based not only on Federal policy, but on our own lessons learned. Thus we would put more emphasis on
sub-items a and c, which focus on evaluating options, than on item b, which seems to indicate a
preference for cloud migration. Our completion date will be contingent upon the evaluation of our
lessons learned, which will continue through the SharePoint deployment set to launch in early summer.
We also request clarification on whether the term “applications” under item c refers to applications as we
have defined them in this document.

Estimated Completion Date: 5/29/2015

 OIG Comment: OEI indicated that it concurs with the recommendation, but its response did
 not provide sufficient information on the intended corrective action to allow us to properly
 determine whether the intent of the recommendation is satisfied. In contrast to OEI’s
 definition of an application as being a generic term that refers to stand-alone software
 systems, NIST SP 800-37 revision 1 defines an application as a software program hosted by
 an information system.

Discussion of OIG Findings:
Chapter 5: Improvements Needed in Documented Process for Cloud Implementation
As noted in the comments to Chapter 4, it is not appropriate draft findings or to make recommendations
concerning “applications in the EPA’s IT Portfolio.” Applications and the IT portfolio are different
items, with different lifecycles and governance. Any guidance that OEI develops for cloud migration
would likely have to provide tailoring differences for evaluating applications versus evaluating Capital
Planning and Investment Control (CPIC) investments.




14-P-0332                                                                                                  27
DISAGREEMENTS

Report Title
OEI respectfully requests the OIG change the title of this report to more accurately reflect the purpose and
nature of the findings of this audit. A suggested title is “Improvements Needed in Implementing Cloud
Initiatives.”

Discussion of OIG Findings:
Chapter 4: OEI Did Not Evaluate Whether Applications Could Be Retired, Consolidated and Moved to
the Cloud
Chapter 5: Improvements Needed in Documented Processes for Cloud Implementation
The OIG’s stated purpose for this audit was to determine whether EPA had 1) implemented its cloud
initiatives in accordance with the Federal Cloud Computing Strategy and 2) developed formal processes
to monitor cloud vendors. However, the OIG went on to include others in its report and recommendations
area not associated with its stated purpose, see Chapter 4 “OEI Did Not Evaluate Whether Applications
Could Be Retired, Consolidated and Moved to the Cloud” and Chapter 5 “Improvements Needed in
Documented Processes for Cloud Implementation.” Chapter 4 discusses EPA’s overall information
portfolio which in many cases was untouched by the move from Lotus Notes to a suite of Microsoft tools,
including email. Chapter 5 focuses on EPA’s policies and procedures for moving to the cloud. The
addition of this chapter was not covered by the purpose of the audit and should not be included in this
report.

 OIG Comment: The Federal Cloud Computing Strategy indicates that cloud computing has
 the potential to address inefficiencies that negatively impact the federal government’s ability to
 serve the American public. These inefficiencies include: low asset utilization, a fragmented
 demand for resources, duplicative systems, environments which are difficult to manage, and
 long procurement lead times. We conclude this to mean that the management of IT investments
 to eliminate these inefficiencies is a part of the Federal Cloud Computing Strategy.

 We conclude that the policies and procedures addressed in chapter 5 are essential for following
 federal cloud computing strategy. OMB Circular A-123 indicates that internal control activities
 such as policies and procedures help ensure that agency objectives, such as effectiveness and
 efficiency of operations and compliance with applicable laws and regulations, are met.

OIG Recommendation 1 (Lead Office: OEI/OTOP/MISD)
Develop and implement an internal independent oversight process to ensure that a justification for the use
of either OMB Circular A-94 Revised or OMB Circular A-76 Revised is documented and that
documented cost-benefit analyses are performed in compliance with the proper OMB circular prior to
OEI outsourcing IT initiatives.

Explanation for Disagreement:
Following are the reasons OEI does not concur with this recommendation:

1. OMB Circular A-76 is not relevant to “outsourcing IT initiatives.” The purpose of OMB Circular A-
   76 is to assess whether work performed by government staff is inherently governmental or whether it
   could be provided by the private sector. There is little to be gained by evaluating whether to conduct
   an A-76 analysis.




14-P-0332                                                                                                28
2. The phrase “outsourcing IT initiatives” is vague. We think it is appropriate to distinguish investment
   in the IT portfolio, which are subject to OMB’s CPIC process, from IT applications, which are much
   smaller programs and locally managed. The rigor needed for the cost analysis around an IT
   investment is much higher than the rigor needed for the cost analysis around an application.

3. There are additional initiatives underway that lend guidance to how OEI should address cost
   estimating.

              a. In response to GAO-12-629, Information Technology Cost Estimation: Agencies Need to
                 Address Significant Weaknesses in Policies and Practices, OEI has incorporated the GAO
                 Cost Estimating and Assessment guide by reference into its System Life Cycle
                 Management (SLCM) procedure for the definition phase. The GAO guide covers many
                 of the elements listed in Circular A-94. However, while Circular A-94 is about 4 pages
                 long, the GAO guide is almost 400 pages.

              b. In support of its ongoing work with OMB’s PortfolioStat, EPA is expanding the role of
                 its Information Investment Subcommittee to an Information Investment Review Board
                 (IIRB). This board is chartered to mature investment and portfolio management within
                 EPA. This would be the appropriate “internal independent” body to assess the level of
                 rigor needed respectively for CPIC Major, Medium, Lite, and Small/Other investments.

Proposed Alternative:
OEI proposes that recommendation #1 be replaced with a recommendation that as one of its first-year
objectives, the IIRB expand upon the text currently in the SLCM to provide minimum guidelines for cost
estimates and cost-benefits analyses, based on the distinction between CPIC levels.

     OIG Comment: OEI indicated that it disagrees with the recommendation and offered an
     alternative recommendation. However, OEI’s alternate recommendation did not provide
     sufficient information on the intended corrective action to allow us to properly determine
     whether the intent of the recommendation is satisfied.

Discussion of OIG Findings:
Chapter 2: Improvements needed in Email Cloud Implementation.
This chapter includes a critique of the cost-benefit analysis developed in the business case that was used
to make a decision whether to migrate email to the cloud. It states that the analysis “did not adhere with
EPA and federal guidance22.” Specifically, the auditor calls out that the cost benefit analysis may include
sunk costs, and that this is counter to the guidance in OMB Circular A-94.

OEI is not in complete agreement that the costs referred to by the auditor as sunk costs do completely
represent sunk costs, as we believe they include capital refresh as well. Nonetheless, OEI acknowledges
that given the tight timeframes around this project, the initial cost benefit analysis did not include all
elements in the OMB A-94 guidelines. It was conducted to provide input to the decision whether to
proceed; we understood that we would update the return on investment calculations as the project
progressed.


22
 We believe that in stating that OEI did not follow EPA guidance, the auditor is referring to the System Life Cycle
Management (SLCM) policy. We would like to note that the initial cost estimate was conducted in April 2012,
whereas the current policy was not signed until September 2012.


14-P-0332                                                                                                        29
The report also faults the cost analysis on the premise that “OMB Circular A-76 indicates that the cost of
contract performance should be based on the price to perform the requirements of the Performance Work
Statement, as presented by the offeror to compete with the in-house workforce. OEI used estimates for
migrating to the cloud and did not use the offeror’s price.” OEI considers this critique unfounded. First,
we do not believe that OMB Circular A-76 is relevant to this transaction. This project replaced one
commercial email system with another, and had nothing assessing whether the work performed was not
inherently government and should be performed by the private sector. Second, the purpose of the cost
benefit analysis was to inform the decision whether to move forward with the cloud migration; it thus
preceded the acquisition activity, and could not have included the offeror’s price. The offeror’s price was
later incorporated into an update of the initial analysis.

OIG Recommendation 9 (Lead Office: OEI/OTOP/MISD)
Develop and implement a strategy to perform a documented analysis of the assets remaining on the
platform that supported the EPA’s internal email to determine which assets should be consolidated,
retired and moved to the cloud or another platform.

Explanation for Disagreement:
OEI believes we need to take some time to document and consider lessons learned from our cloud
migrations prior to starting the task of developing roadmaps. These lessons learned will be very helpful
in addressing recommendation #12, “Publish detailed instructions for agency programs to use when
considering moving applications to the cloud.” For example, we still need to assess SharePoint when it
deploys, as it might provide a proper bed for the applications. We do concur with recommendation #12,
and would consider that a precursor to addressing recommendations 9 – 11.

Proposed Alternative:
OEI proposes that we need to assess current lessons learned on cloud migration before mandating a full
analysis of all applications for migration. For example, we need to assess the ability of SharePoint to host
(and even evaluate) applications. We also believe that it is plausible that allowing the migration to
happen organically via the application lifecycle process could be more to the agency’s advantage than
evaluating all of them at once in order to create a single comprehensive roadmap.


 OIG Comment: OEI indicated that it disagrees with the recommendation and offered an
 alternative recommendation. However, the alternate recommendation did not provide
 sufficient information on the intended corrective action to allow us to properly determine
 whether the intent of the recommendation is satisfied.

OIG Recommendation 10 (Lead Office: OEI/OTOP/MISD)
Develop and implement a strategy to perform a documented analysis of all the assets in the EPA’s IT
portfolio to determine which assets should be consolidated, retired and moved to the cloud.

Explanation for Disagreement:
OEI does not concur, on the basis that this is a broad portfolio management initiative, broader than just
cloud migration, and is being addressed separately via the new IIRB. The IIRB first-year objectives
include a mandate from GAO to “identify criteria for identifying wasteful, low-value, or duplicative
investments.” These criteria could include reference to whether cloud migrations have been considered.




14-P-0332                                                                                                30
Proposed Alternative:
OEI proposes allowing the first-year objective of the IIRB to serve as a proxy for this recommendation.

 OIG Comment: OEI indicated that it disagrees with the recommendation and offered an
 alternative recommendation. However, the alternate recommendation did not provide
 sufficient information on the intended corrective action to allow us to properly determine
 whether the intent of the recommendation is satisfied.

OIG Recommendation 11 (Lead Office: OEI/OTOP/MISD)
Create and follow a roadmap to implement the consolidation, retirement and cloud migration of IT assets
as identified in response to recommendations 9 and 10.

Explanation for Disagreement:
OEI would need to complete its proposed alternative responses to recommendations 9 and 10 before
commenting on the appropriateness of this recommendation. We may find that this course of action is
still appropriate, or we may identify an alternative course of action.

 OIG Comment: OEI indicated that it disagrees with the recommendation and offered an
 alternative recommendation. However, the alternate recommendation did not provide
 sufficient information on the intended corrective action to allow us to properly determine
 whether the intent of the recommendation is satisfied.

Discussion of OIG Findings:
Chapter 4: OEI Did Not Evaluate Whether Applications Could be Retired, Consolidated, and Moved to
the Cloud
In order to comment on this chapter, OEI needs to reiterate the distinction between “applications” and the
“IT portfolio.” These are two different items and are managed in different ways. The term “IT Portfolio”
describes all CPIC major, medium, lite, and other investments. The IT portfolio currently consists of
about 120 investments. It is managed by the IIRB (described above), and the IIRB is co-chaired by the
Deputy CIO and the Deputy CFO. “Application” is a generic term that refers to stand-alone software
systems, the bulk of which are home-grown and designed to meet specific, local needs. EPA evaluated
over 6,000 applications to ensure that the migration of email to the cloud would not break their
functionality. Applications are managed locally throughout their lifecycle and are not part of the “IT
Portfolio” and its governance processes described above.

This is an important distinction because the report states on page 17 that “OEI representatives indicated
that OEI does not manage the IT portfolio for the agency…” then goes on to refute that statement from a
policy basis. The OEI representatives made this statement in the context of applications, which are not
under IIRB governance, rather than the IT portfolio. OEI believes this paragraph is misleading and
should be removed.

 OIG Comment: OMB Memorandum M-13-09 indicates that “As the Federal government
 implements the reform agenda, it is changing the role of Agency Chief Information Officers
 (CIOs) away from just policy making and infrastructure maintenance, to encompass true
 portfolio management for all IT.” We conclude that the IT portfolio includes all IT.




14-P-0332                                                                                                 31
                                                                                     Appendix B


 OARM Response to Draft Report and OIG Comments
                                               (May 30, 2014)


                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460



                                                                                          OFFICE OF
                                                                                        ADMINISTRATION
                                                                                        AND RESOURCES
                                                                                         MANAGEMENT


MEMORANDUM

SUBJECT:       Response to Revised Audit Report OA-FY13-0095: Cloud Oversight Resulted in
               Unsubstantiated and Missed Opportunities for Savings, Unused and Undelivered
               Services, and Incomplete Policies

FROM:          Craig E. Hooks, Assistant Administrator

TO:            Arthur A. Elkins, Jr.
               Inspector General

OARM has reviewed revised OIG audit OA-FYB-0095, and provides the following response to
new and existing audit findings.

                           OARM Recommendations and Responses

Recommendation 2: Determine the difference in cost between not moving all the email to
the cloud within the agreed-to time frames as specified in the contract and just moving 30
days of email, and seek an equitable reduction in price.

OARM Response: In the draft report, the OIG described the scenario leading to the above
recommendation as "after entering into the contract, OEI indicated that the vendor stated it could
not transfer all of the e-mail in the timeframe required by the contract. As a result, OARM's
Contacting Officer (CO) verbally allowed the vendor to transfer only 30 days' worth of e-mail.
Even though the vendor did not perform the work agreed to in the contract the CO did not issue a
cure notice or seek to renegotiate the 'price of the contract with an equitable reduction in price."
The Office of Acquisition Management (OAM) does not believe these general statements
accurately represent the circumstances that resulted in an authorized change order to the contract.
Pursuant to the changes clause of the contract (FAR 52.243-1), the contracting officer is
authorized to direct changes within the general scope of the contract (FAR 4 3.201). Moreover,
in light of the fact that the contracting officer considered such changes to be within the scope of
the changes clause, the terms and conditions relating to potential termination (e.g., issuance of a


14-P-0332                                                                                        32
show cause or cure notice) did not apply. With respect to the statement that the contracting
officer did not seek to renegotiate the price of the contract with an equitable reduction in price,
such a statement implies that a reduction in price is the only consideration that would be
applicable and appropriate for contract changes. In fact, equitable adjustments resulting from
contract changes can take various forms depending on the type of contract and the nature of such
changes. For example, adequate consideration for authorized changes may, and in this case did,
include the contractor absorbing increased costs it was required to incur for performance of the
changed contract.

Contract EP-G12H-00522 was awarded to the vendor on September 14, 2012 in support of an
EPA requirement to replace the current enterprise on premise e-mail, collaboration and
Blackberry Enterprise solution, with a Software as a Service (SaaS) services and support
contract. In accordance with the solicitation, the successful offer included a fixed-price four (4)
month transition period during which email would be migrated from the old to the new software
using a migration tool. As a result of subsequent EPA identified risks, modification 2 of the
contract extended the migration period to five (5) months and adjusted the fixed-price by
$112,359. In mid-December 2012, the vendor notified EPA that a latent defect in the proposed
migration tool discovered during testing would severely protract the speed of the migration, from
six (6) weeks to over two (2) years. With this notification, the EPA had three choices: (1)
terminate the contract for default, (2) require the contractor to execute the migration over two
years at no increase in contract price, or (3) negotiate an appropriate contract change. Contract
termination was not an option as this requirement was mission critical. Extending the migration
over two years was not an option as this approach would have resulted in the EPA continuing to
use unsupported Lotus Notes software during the migration. Negotiation was the only viable
approach to reaching a solution. As a result, the vendor proposed three solutions to this problem
and the parties entered into negotiations. Each of the three proposed solutions included migration
of all e-mail over extended timeframes (from four [4] to seven [7] months), and the vendor had
already purchased a new migration tool proposed under one option. After considering the
proposed solutions, EPA and the vendor negotiated a fourth solution, which required the vendor
to migrate only 30 days of e-mail over a weekend. The migration was accomplished, and in
January 2013 the vendor entered into discussions with the EPA on contract scope changes
effected since award, which other than the afore-mentioned option four (4) solution included a
new encryption solution, additional migration schedule changes and the need for additional help
desk surge support, and Blackberry infrastructure changes driven by security considerations.
Although the vendor indicated costs were associated with each scope change, the contractor did
not file a claim for equitable adjustment for any increased costs incurred. Furthermore, specific
to the negotiated option four (4) change, the vendor offered to provide up to three (3) additional
e-mail administrators at no additional cost from January through August 2013 as consideration to
the EPA for the scope change. Any of the costs associated with these changes could have been
offset against costs incurred by EPA resulting from the change in migration scope. Negotiations
continued between the parties and were ultimately settled in July 2013. In the negotiated
solution, the CO and contractor agreed to an equitable settlement in which the Government
would not be charged any increased costs incurred by the contractor for these changes. OAM
believes the more detailed description of the events surrounding this procurement above
demonstrate that: (1) the decision to transfer only 30 days of e-mail was documented on the
record prior to the formal July 2013 contract modification, (2) a cure notice was not necessary as



14-P-0332                                                                                        33
the parties were in negotiations to resolve contract changes not governed by the terminations
clause, and (3) the decision not to adjust the contract price was not frivolous but rather part of a
well-considered, negotiated agreement.

It is important to note the EPA's need to maintain Lotus Notes resulted from drivers other than
agency wide e-mail, as various agency offices were still using Lotus Notes databases.
Consequently only a portion of Lotus Notes maintenance resulted from partial e-mail migration.
Lastly, under modification four (4) to the contract the EPA negotiated consideration for the lack
of required encryption functionality which is calculated on a monthly basis and has resulted in
credits of approximately $42,000 to the Agency to date.

Finally, the July 2013 modification revises the Statement of Work to require the vendor to
migrate the "Most recent 30 days of Email", and also states "In consideration of the modification
agreed to herein as complete equitable adjustment based on the Contractor's revised proposal
dated June 18, 2013, the Contractor hereby releases the Government from any and all liability
under this contract for further equitable adjustments attributable to such facts or circumstances
giving rise to the proposal referenced above. This release shall also apply to the additional
changes made to the Statement of Objectives".

This language creates a complete and final equitable adjustment on the above-described contract
change per FAR 43.204(c). As such, the Government has no legal basis to re-open negotiations
on this subject.

 OIG Comment: The OIG removed this recommendation because, subsequent to the OIG
 notifying the Office of Acquisition Management that the contracting officer had never issued
 a written modification associated with the oral agreement, the Office of Acquisition
 Management issued a written modification that included this scope change.

 OARM’s response to the draft report indicated that the Office of Acquisition Management
 and the contractor signed a formal (written) modification, in July 2013 (subsequent to the
 OIG informing the Office of Acquisition Management that there was no written
 modification), that included reducing the amount of email to be migrated by the vendor to
 only the most recent 30 days of email and included language waiving the EPA’s right for
 further equitable adjustment for this modification. Additionally, the Office of Acquisition
 Management’s response indicated that the vendor claimed that there were costs associated
 with other scope changes (including a new encryption solution, additional migration schedule
 changes and the need for additional help desk surge support, and Blackberry infrastructure
 changes driven by security considerations) for which the contractor did not file a claim for an
 equitable adjustment. Further, according to the actual modification, this modification
 changed the incremental funded amount from $3,427,891 to $3,573,891.

 The OIG did not perform an evaluation to determine whether this modification was equitable.




14-P-0332                                                                                          34
Recommendation 3: Develop training and oversight to help ensure contracting officers:
     a. Issue cure notices when they become aware that a vendor will not meet its
        contractual obligations.
     b. Negotiate equitable reductions when vendors are not able to fulfill their
        contractual obligations.
     c. Add written amendments to contracts for all contract modifications.

OARM Response: OARM agrees with these recommendations as sufficient regulatory and
policy guidance already exists in FAR Part 49 on Cure Notices, and in FAR Parts 43 and 49, and
CMM Part 42 on Equitable Adjustments. To perform oversight and compliance with these
policies, OAM will identify contractor performance issues as a critical focus area for future
contracting activity under the self-assessment and peer review components of the BSC PMMP.

With regard to contract file documentation, OAM has self-identified inadequate file
documentation as a recurring finding under the BSC PMMP Peer Review program, and has
directed a number of corrective actions, including the institution of more robust internal control
reviews of procurement transactions. Policy that has already been updated to foster improvement
in this area includes the attached excerpts from the OAM Acquisition Handbook ''Update to
Acquisition Handbook 4.1 Reviews, Concurrences, and Checklists" (entire document at
http://oarnintra.epa.gov/node/47, and updated via Interim Policy Notice (IPN) 12-03
"Acquisition Planning" at http://oamintraepagov/node/8?q=node/158), which Contract Checklists
of documents to be filed in the official contract file. Again, OAM will continue to use the self-
assessment and peer review components of the BSC PMMP to monitor compliance with these
policies. IPN 12-03 was published on October 14, 2013, and Acquisition Handbook 4.1 was
published on December 19, 2013, which may be used as the corrective action completion date
for this recommendations.

Furthermore, several initiatives resulting from OAM's Contract Management Assessment
Program (CMAP) Peer Reviews, as well as OARM's Centers of Expertise in contracting
initiative, will establish new or improved functional requirements in this area. These include
establishing independent business clearance reviews of pre- and post-award actions, and
heightened accountability for obtaining and retaining delegations of contracting authority.
Additionally, a BSC initiative on contract management planning has been developed in FY 2014
to identify process improvements, policies and other tools to improve both contract file
documentation and administration activities. To perform oversight, again OAM will use the self-
assessment and peer review components of the BSC PMMP to monitor and report on compliance
with applicable regulations, policies, and guidance. OAM oversight activities are ongoing.

 OIG Comment: OARM agreed to the recommendation and indicated that it has taken
 actions to address this recommendation.




14-P-0332                                                                                      35
Recommendation 8: Establish formal oversight processes and training to ensure that the
requirements for use of the USGv6 Profile and Test Program for the completeness and
quality of their 1Pv6 capabilities are met within all applicable IT contracts or that a waiver
is obtained from the CIO prior to issuing an applicable IT contract that does not meet the
requirements, as required by FAR.

OARM Response: OARM agrees with this recommendation. Although supporting
documentation for this procurement indicates the CIO relieved solicitation compliance
requirements as a result of market research indicating there were no solutions to the technical
requirement, and was also aware the awardee would not be in compliance until September 2013,
the FAR requires a waiver. Subsequent to the award of this contract, OAM issued Interim Policy
Notice (IPN) 12-03, "Acquisition Planning" at http://oamintra.epa.gov/node/8?q=node/158,
which implements a robust acquisition planning process including use of an acquisition planning
team to conduct planning in support of all procurements above the simplified acquisition
threshold. Under IPN 12-03, pre-award acquisition planning on information technology (IT)
requirements includes discussions to ensure these requirements are solicited and the file
documented in accordance with applicable regulations, policy and guidance, and OAM uses the
self-assessment and peer review components of the Balanced Scorecard Performance
Measurement and Management Program (BSC P:MMP) to monitor compliance post-award. IPN
12-03 was published on October 14, 2013, which may be used as the completion date for this
corrective action.

Furthermore, as the self-assessment and peer review checklists are subject to regular review and
updating, OAM will use this process as a mechanism to focus on compliance areas identified
through internal and external reviews, including audit findings such as recommendation 8 above.
Finally, on the instant procurement the CO obtained a waiver for the follow-on action under this
contract, which is in the contract file.

 OIG Comment: OARM agreed to the recommendation and indicated that it has taken
 actions to address the recommendation.

cc: Nanci Gelb, Principal Deputy Assistant Administrator, OARM
    Rudolph M. Brevard, Director, Information Resource Management Audits
    John Bashista, Director, Office of Acquisition Management, OARM
    Todd Hanson, Director, OAM Headquarters Procurement Operation Division, OARM
    Brandon McDowell, OARM
    Lisa M. Maass, OARM/OAM




14-P-0332                                                                                     36
                                                                                 Appendix C



                                     Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Environmental Information
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Technology Operations and Planning, Office of Environmental Information
Director, Office of Acquisition Management, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
        Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
        Resources Management
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
        Resources Management




14-P-0332                                                                                   37
